No. 19-1035
IN THE

Supreme Court of the United States
SHARON D. ROSE,
v.

Petitioner,

SELECT PORTFOLIO SERVICING, INC., et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
I, Brian T. Burgess, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s
Order of April 15, 2020) that I have, this 4th day of June 2020, served respondents’
Brief in Opposition upon each party separately represented in this proceeding by
causing an electronic copy of the same to be delivered to counsel of record at the email address listed below:
Ishan K. Bhabha
ibhabha@jenner.com
Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

June 4, 2020

Brian T. Burgess
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
Counsel for Respondent
Select Portfolio Servicing, Inc.

2

